   This dCKument is subject to the provisions of the Privacy Act of 1974, and may require redaction
   before disclosure to third parties. No redaction has been performed by the Office of Inspector
 . General. Recipients oftbis report should not disseminate or copy it without the Inspector General's
   approval.


                      REPORT OF INVESTIGATION
   UNITED STATES SECURITIES AND EXCHANGE COMMISSION

              OFFICE OF INSPECTOR GENERAL


                                       Case No. OIG-487


                           Allegations of Retaliatory Action

                         by SEC Division of Enforcement Staff



                           Introduction and Results of Investigation

           On April 6, 2008, the Securities and Exchange Commission ("SEC" or·
. "Commission" Office ofInspector Oeneral ("010") opened an investigation into
  allegations by (b){7){C)         shareholder of the company JagNotes.com, Inc.
  ("JagNotes.com") that the SEC's Division of Enforcement ("Enforcement") staffengaged
  in misConduct in its investigation of suspicious· trading activity in JagNotes.com stock.
  SpecifiCally,~lleged that: (l)the Enforcement staffs investigation of
  JagNotes.co~rmerCEO, President and Chainnan, Oary Valinoti ("Valinoti"), for
  improprieties in the trading of JagNotes.com stock was conducted in retaliatio~ for~
  and Valinoti having complained about naked short selling in JagNotes.com stock; and (2)
  the Enforcement staffimproperl sou ht the disbarment of an attoniey,l(b)(7)(C)            I
I(b)(7)(C)       I in retaliation for (b)(7)(C)   aving·assisted Valinoti transfer
  JagNotes.com stock.

          The. 010 investigation found that the Enforcement staffs.investigation into
 JagNotes.com securities trading was prompted by a referral from the National
 Association of Securities Dealers Regulation ("NASDR") that predated the complaints by
1~~\(7) land Valinoti concerning naked short selling and thus, did not find evidence .
 substantiatin the complaint. The 010 investigation also found no evidence that the staff
 sought (b)(7)(C)       isbannent.              .

                                      Scope of Investigation

           The 010 took th~ sworn testimony o~on June 6, 2008, andl(b)(7)(C) I
l{b)(7)(C)                                  Ion Se tember 14,2009. The 010 also
  interviewed a representative of the State Bar of (b)(7){C)

       In addition, the 010 reviewed the following items: (I) the November 4, 1999

Action Memorandum seeking formal order authority for the investigation titled In the

    This document is sUbject to the provisions of the Privacy Act of 1974, and may require redaction
    before disclosure to third parties. No redaction has been performed by the Office of Inspector
    General. Recipients of this report should not disseminate or copy it without the Inspector General's
    approval.

    Matter of Trading in the Securities of JagNotes.com, Inc. ("Jagnotes.com Investigation");
    (2) the September 8, 2005 Action Memorandum for the Jagnotes.com Investigation; (3)
    an October l~, 2003' draft document subpoena froml(b)(7)(C)     Ito Computershare Trust
    Company, Inc.; (4) the Hub Case Report for the Jagnotes.com Investigation (HO-7392);
    (5) the SEC's Name Relationship Search Index ("NRSI")1 Report for the JagNotes.com
    investigation; (6) the Commission's litigation release pertaining to its civil action against
    Valinoti; (7) the Form lO-K filed by JAG Media Holdings, Inc. ("JAG Media")2 on
    November 13, 2002; (8) an article published in Forbes magazine on June 10, 2002
    regarding lawsuits by companies against short sellers; (9) an e-mail attaching an article
    purportedly published in the New York Post on May 18,2003 regarding JAG Media's
    lawsuit against brokerage fIrmS for improperly closing short trades; and (10) on-line,
    databases of the State Bar 0 (b)(7) and the Board of Professional Responsibility of the
    Supreme Court of (b)(7)(C)

                                       Relevant Legal Standard

    Commission Canons of Ethics

17 CFR § 200.59 Relationship with persons subject to regulation. "In all matters
before him, a member should administer the law without regard ,to any personality
involved, and with regard only to the issues."

Commission Conduct Regulation

17 CFR § 2QO.735-2 Policy

(a) The Securities and Exchange Commission has been entrusted by Congress with the
protection of the public interest in a highly significant area of our national economy. In'
view of the effect which Commission action frequently has on the general public, it is
important that members, employees and special Government employees maintain
unusually high standards of honesty, integrity, impartiality and conduct. They must be
constantly aware of the need to avoid situations which might result either in actual or
apparent misconduct or conflicts of interest and to conduct themselves in their official
relationships in a manner which commands the respect and confidence of their fellow
citizens.

1 NRSI is used by the SEC's Enforcement staff to research whether a person or entity is involved in an
open investigation.

2    JagNotes.com changed its name in 2002 to JAG Media Holdings, Inc.


                                                    2
  This do(ument is subjed to tbe provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties. No redaction has been performed by the Office of Inspector
  General. Recipients of this report should not disseminate .or copy it withoui the Inspector General's
  approval.



                                     Results of the Investigation

 I.      .The Enforcement staff's Investigation ofValinoti's trading

            In July 1999, the NASDR referred suspicious activity irtJagNotes.com stock to
   the SEC for investigation ofpossible insider trading. September 8, 2005 Action
   Memorandum for HO-7392 (9/8/05 Action Memo), attached hereto as Exhibit l, at ii.
   See a/so November 4, 1999 Action Memorandum for HO-7392 (11/4/99 Action Memo,
. attached hereto as Exl;ribit 2, at 1; Transcript of September 14,2009 testimony 0 (b)(7)(C)
 l(b)(7)(C)               JTr.), attached hereto as EXhibit 3, at 11. The referral was based on
   suspicious trading volumes in JagNotes.com stock prior to JagNotes.com's
   announcement ofa reverse merger. 3 !(b)(7)(C)     ITr. at 25-26; 11/4/99 Action Memo at 4.

         In August 1999, the SEC staff opened.a Matter Under Investigation in response to
 the NASDR referral. 11/4/99 Action Memo at 2 statin "Source Of Case: Referral from
 NASD Regulation, Inc."). Shortly after (b)(7)(C)           started working at the SEC as a
 staffattorney in Enforcement in September 1999, he was assigned to the JagNotes.com
 investigation. I(b)(7)(C) ITr. at 10, 38. In November 1999, the SEC staff sought and
 received a formal order in connection with its investigation, titled In the Matter of
 Trading in the Securities·of Jagnotes.com, Inc., HO-7392.· 9/8/05 Action Memo at 2. See
 also 11/4/99 Action Memo at 1.

          In the course of investi atin possible insider trading ofJagNotes.com securities,
 the SEC staff, including (b)(7)(C)    took the testimony of       Valinoti on April 29,
·2002,.as a potential tipper of nonpublic information. (b)(7)(C)   Tr. at 26. See also 9/8/05
 Action Memo at 4; Hub Case Report, attached hereto as Exhibit 4. Valinoti was
 president and CEO of New Jag, Inc., from 1992 until the reverse merger in March 1999,
 and was president, CEO, and chairman of the board of directors for Jagnotes.com from
 March 1999 through April 2004. 9/8/05 Action Memo at 2. In the course ofV~inoti's
 testimony, Valinoti testified that he had received 250,000 shares of JagNotes.com stock
 at the time ofthe reverse merger and subsequently transferred the shares.l(b)(7)(C)     ~r.
 at 26-31.



3 .New Jag, Inc., a privately held New Jersey corporation that provided financial news and investment
infonnation, was acquired in March 1999 in a reverse merger by Professional Perceptions, Inc. 9/8/05
Action Memo at 3; 11/4199 Action Memo at 2. Pursuant to this merger, the new company changed its
name to JagNotes.com. 9/8/05 Action Memo at 2.


                                                    3
    This document is subject to the provisions. of the Privacy Act of 1974, and may require redaction
    before disclosure to third parties. No redaction has been performed by the Office of Inspector
    General. Recipients of this report should not disseminate or copy it without the Inspector General's
    approval.

            After Valinoti's April 29, 2002 testimony, the Enforcement staffobtained
    documents confinning that Valinoti purchased 250,000 unregistered "free-trading"
    shares, with no clause in the stock purchase agreement identifying the shares as restricted
    or cautioning that the shares were subject to resale restrictions. 9/8/05 Action Memo at 3.
    The staff also learned that Valinoti mad.e unregistered sales of 130,000 of these shares in
    March and April of 1999, generating proceeds of approximately $1,831,875. Id Valinoti
    transferred another 118,000 shares to third ~es. Id. One of the eo' Ie to whom
    Valinoti transferred unre istered shares was (b)(7)(Cl.

(b)(7)(C)    9/8/05 Action Memo at 3. See also (b)(7)(C)                          r. at 17-18.' Valinoti
 transferred shares ofJagNotes.com stock to;';;:(b:;':;:)(7dc-)(=C),.----..-i---lexchange
                                                                              n            for an investment in
!(b)(7)(C)           19/8/05 Action Memo at 3-4.

       . The SEC staff subpoenaed Valinoti for further testimony concerning these
 unregistered shares of stock.l(b)(7)(C) ITr. at 32-33. On January 13,2004, Valinoti
 invoked his Fifth Amendment privilege against self-incrimination in response to all
 questions from the staff about the unregistered shares. Id.· See also 9/8/05 Action Memo
 at 4; Hub Case Report..

        The staffconcluded that Valinoti had violated Section 5 of the Securities Act of
        4
 1933 by selling or transferring 248,000 shares of JagNotes.com stock that he had
purchased in an UIiregistered private transaction. 9/8/05 Action Memo at 5. The staff
informed Valinoti. that it intended to recommend that the Commission file a civil action
against Valinoti in connection with these violations. Id. at ii. Settlement negotiations
between the SEC staff and Valinoti began in March 20Q4. [d. at 1. On September 8,
2005, the staffcirculated an action memorandum to the Commission recommending that
the Commission file a ~ivil action against Valinoti and accept Valinoti's offer to settle the
action by consenting to the entry ofa pennanent injunction from future violations of
Section 5. Id. at i. As part of this settlement offer, Valinoti agreed to disgorge illicit
gains of $2,937,040 and 'pay pre:'judgment interest of $1,399,977.5 The Commission


4     15 U.S.C. §   ne.
 S  Pursuantto this settlement offer, Valinoti agreed to satisfy $571,707 of this obligation by paying
$50,000 in cash disgorgement, cancelling his 3,514,229 shares ofJAG Media stock, and cancelling his
options to buy one million shares of JAG Media stock. 9/8/05 Action Memo at 1-2. The staff allowed
Valinoti to satisfy his obligation to disgorge $50,000 by paying $20,000 within thirty days of the date of the
entry of final judgment, and the remaining $30,000 within one year of the date of the entry of final
judgment. rd. at 8-9. The staffdid not recommend to the Commission that it seek a civil penalty against .
Valinoti. [d.



                                                       4
    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
    before disclosure to third parties. No redaction has been performed by the Office of Inspector
    General. Recipients of this report should not disseminate or copy it without the Inspector General's
    approval.

    accepted this settlement offer and the staff filed the settled complaint against Valinoti on
    September 29, 2005. Litigation Release No. 19407, attached hereto as Exhibit 5.

    II.           Valinoti's and!(b)(7)(C)        IComplaints Concerning Naked Short Selling
             !(b)(7)(C)                         lofValinoti who has invested in various stocks
   including JagNotes.com. Transcrip.t'ofSeptember 14,2009 testimony ofrf.,(.,.b)=(7_)(C,-)_ _--'
 ·1(b)(7)(C)        Iattached hereto as Exhibit 6, at 5-7, 20. In November 2003, (b)(7) created a
   website called InvestigateTheSEC.com to air his concerns· regarding what he viewed as
   the SEC's failure to address naked shortselling. ~r. at 7-9. Beginning in 2000,
  ~ent thousands of e-mails over a period of several.years.to the SEC Chainnan,

   Commissioners, the Dircr.ctcir of Enforcement, and news entities such as the New York

   Times and FOX News.6 l(b)(7)(C)         JTr. at 13, 46; ~r. at 52-54. l(b)(7)(C) Ie-mails

. discussed his concerns about naked short selling, with a small percentage of these e-mails
  discussin his concerns·about naked short selling of JagNotes:com stock.l(b)(7)(C)           ITr.
. at 14; (b)(7) Tr. at 53. These e-mails .also included allegations that the SEC
  Commissioners were conspiring with Wall Street.to protect naked short sellers. Id. at 15.

                         I
                  I~~~ testified that he believed that the SEC staff initiated an investigation of
 Valinotl  cause Valinoti and~had publicly complained about naked short selling.
~r. at 24, 40-44. On June 20, 2002, almost three years after the Enforcement staff
opened the JagNotes.com investigation, JAG Media and Valinoti filed a lawsuit against
over 150 brokerage firms allegiDg~ among other thing, a conspiracy to short sell JAG
Media stock. See excerpt from Fonn 10-K filed by JAG Media on November 13,2002,
attached hereto as Exhibit 7. This lawsuit was also filed after the Enforcement staffhad
taken Valinoti's testimony and lea.rn.ed that Valinoti had received and transferred
approximately 250,000 unregistered shares of JagNotes.com stock. I(b)(7)(C)      ITr. at 26­
31.

        1~~)(7) lalso testified that Valinoti had com lained about naked short seliing in .
articles in Forbes and the New York Post. (b)(7)(C) f. at 40. A Forbes article regarding
actions taken by companies against short sellers, including a re.capitalization by
JagNotes.com, was published on June 10,2002, and a New York Post article concerning



6     1(t;!.(7)   Idid not testify with certain
                                        as to when his e-mail complaints began. but he testified that it was
"probat~, ~een 2000 and 2003. (b)(7)(         r. at 52-54. Consequently, the 010 found that any complaints
sent by (b)(7) in this time period would have occurred after the SEC's investigation:of JagNotes.com
securities trading had begun in 1999.


                                                            5
    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
    before disclosure to third parties. No redaction has been performed by the Office of Inspector
    General. Recipients of this report should not disseminate or copy it without the Inspector General's
    approval.

  the JAG Media lawsuit against brokerage flms discussed above was published in 2003. 7
  See June 10, 2002 Forbes article, "Sinking Fund," attached hereto as Exhibit 8;
  December 5, 2008 e-mail to DIG, attached hereto as Exhibit 9. As with JAG Media's
  lawsuit against brokerage firms, the OIG investigation found that these articles were
  published several y.ears after the Enforcement staff had begun its investigation into
  trading of JagNotes.com securities, and after the Enforcement staff had learned· from
. Valinoti's testimony that he had transferred unregistered shares of stock. 8

           I('}(l}(e)       .   Itestified !bat, after the investigation in;::,otesocom securities
    trading had been opened, he received some e-mails from (b)(7) about naked short selling,
    but it did not im act his investigation, which did not concern s ort selling. l(b)(7)(C) ITr.
    at 16. (b)(7)(C)  also testified that he did not receive or read any e-mails, documents or
    websites about naked short selling of JagNotes.com until after the SEC's JagNotes.com
    investigation had been opened. Id; at 46-47.

    III.   1_(b)_(7_)(C_)          IState Bar Membership

             As discussed above~l(b)(7)(C)     !was one of the people to whom Valinoti
    transferred unregistered shares ofJagNotes.com. On A ri124, 1999, Valinoti transferred
    50,000 unregistered shares ofJagNotes.com to (b)(7)(C)        in return for a 25 percent
    itlterest in I(b)(7)(C)          I 9/8/05 Action Memo at 3-4.




7 l(b)(7)(C)   Itestified that he did not recall seeing any articles about naked short selling related to JAG

Media. l(b)(7)(C) ITr. at 46-47.                                   .


 8.     As an alternative to his theory that the SEC action against Valinoti was retaliation for Valinoti's and
l(b)(7)(C) lcomplaints about naked short selling,I~~,(7) Ialso claimed in his testimony that the SEC staff
 believed J,Notesti-com was a Rum and dump operation, and had harassed Va/inoti and others because of
 that belief. (b)(7)( r. at 31-36. (b)(7) ffered no evidence to ·support his altemative theory of retaliation.
I(b)(7)(C) !testified that he did not sus ect and was not aware ofany allegations of pump and dump activity
 at any point during this investigation. (b)(7)(C) n. at 35-36. The action memoranda for this investigation
 made no mention of pump and dump allegations or cOncerns. See 11/4/99 Action Memo; 9/8/05 Action
 Memo.·                                            . .
9   l(b)(7)(C) Itestified that he believed he h~ called the State Bar 0 (b)(7)(C)             (b)(7)(C)
at 21-22. However, the State Bar o~~~\(7) Ihas no record of any individual with the name '(b)(7)(C)
                                                                                           ---------'


                                                          6

  This document is sUbject to the provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties. No redaction has been performed by the Office of Inspector
  General. Recipients of this report should not disseminate or copy it without the Inspector General's
  approval.

  testified that heJeamed from this telephone call thatl(b)(7)(C)      Ilicense to practice law
  had been suspended. Id. The records of the Board of Professional Responsibility of the
  Supreme Court 0~(b)(7)(C)   lindicate thatl(b)(7)(C)      Ilicense to practice law was .
                                     10
  suspended on A ril 1, 2002. See Board of Professional Responsibility of the Supreme
  Court of (b)(7)(C)      Release of Infonnation, attached hereto as Exhibit 10. According to
  those records, I(b)(7)(C)     Ilicense is suspended; he has not been disbarred. Id.
                                                 lhad
=""",.---L-(b_)(_7)o.-(C.-I)testified thatl(b)(7)(C)   told (b)(7) thatl(b)(7)(C) Ihad contacted the
(b)(7)(C)                 ar Association and infonned the (b)(7)(C)     Bar Association that (b)(7)(C)
  was involved in the Sale of unregistered securities and should be disbarred. ll (b)(7) , r. at
  31. (b)(7) offered no evidence to support the allegation'that (b)(7)(C) had soug t
 I
 (b)(7)(C)     disbarment and the fact, discussed above, that (b)(7)(C)    ad been

 suspended almost two years before he testified in the JagNotes.com investigation is

 inconsistent with the allegatio~.      '



 ever being a member. Consequently, the OIG concluded that it was more likely that (b)(7)(C)         had called
 the State Bar ofl(b)(7)(C) land was mistaken about having called the State Bar of (b)(7)
 (b)(7)(C)




  11 l(b)(7)(C) Iallegation regarding!(b)(7)(C)   lis part of his broader beliefthat the SEC "used the ower of
  the federal government to scare individuals away" who were affiliated with JAG Media. (b)(7)( r. at 44­
  50. Similar to his claim regardingl(b)(7)(C) ll(b)(7)( Ibelieves that the SEC staff pressured (b)(7)(C)
I(b)(7)(C)           10fComputershareTrust Company, Inc. ("Computershare), to stopserving as the transfer
  agent for JagNotes.com's stock. ld 1~':>,(7) Itestified that Valinoti told him that an SEC staff member called
 I(b)(7)(C lin 2003 and toldl(b)(7) Ito "get a good lawyer" because Computershare's handling of
  JagNotes.com's stock was illegal, and that an SEC staff member told~in 2004 not to do business
                                                                                           I
  with JAG Media. ld. at 44-50. I(b)(7)(C) ~estified that he has never spoken to 1~~!,(7) that his only ,
 communication with any individuals at Computershare was to give advance notice ofa subpoena for
 documents to identify where Valinoti had transferred his unregistered JagNotes.con'l stock, and that he had
 no knowledge ofthe SEC Enforcement staff having anything to do with Computershare dropping JAG .
  Media as a elientl(b)(7)(C) ITr.     at 52-56.                             ,

                                                        7
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
 before disclosure to third parties. No redaction has been performed by the Office of Inspector
 General. Recipients of this report should not disseminate or copy it without the Inspector General's
 approval.                              .




         Accordingly, we did not find evidence substantiating (b)(7)(C) claim.

                                            Conelusion .

         The OIG investigation did not find evidence substantiating the claim that the
 complaints b~d Valinoti concerning naked shortselling led to, or influenced, the
 SEC staff's JagNotes.com investigation.. In fact, we found evidence that the investigation
 was opened because ofa referral by the NASDR. Moreover, we found that the NASDR
 referral and the opening of the JagNotes.com investigation in 1999 predatedl(b)(7)(C) land
 Valinoti's earliest complaints about naked short selling.

             Furthermore, the OIG investi adon found no evidence to support the allegation
  thatl(b)(7)(C) Iattempted to have (b)(7)(C)    disbarred. -The records ofthe Board of .
  Professional Responsibility of the Supreme Court 0~(b)(7)(C)      Ievidence ~e fact that
l(b)(7)(C)        Ilicense was          for reasons unr~lated to the JagNotes~com~= _ _
  investigation long before (b)(7)(C)   contacted the Board in connection with 1_(b)_(7_)(C_) __
  testimony.

       Consequently, the OIG is closing this matter. A copy of this report is being
provided for informational purposes to the Deputy Chiefof Staff to the Chairman and the
Director of Enforcement.




                                                 8

